2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

é E-Mail Address:
Le ga 1 Briefs contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-351

FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,
Petitioners,

v.

ALAN PHILIPP, et al.,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5995 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 23rd day of November, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

Boman | Kemse Qthoo Ondine bt Chole

My Comm. Exp. Septamber 5, 2023

 

Notary Public Affiant 40258
